                          United States Attorney David J. Hickton
                             Western District of Pennsylvania



    FOR IMMEDIATE RELEASE
    TUESDAY, OCTOBER 2, 2012
    WWW.JUSTICE.GOV/USAO/PAW

   Jury Finds Woman Guilty of Stealing More than $100,000 in Social Security Benefits
                                  Meant for Minors

PITTSBURGH - After deliberating 1½ hours, a federal jury of six men and six women found Lisa
Ann Gray guilty of two counts of conversion of Social Security benefits and theft of government
property, United States Attorney David J. Hickton announced today.

        Lisa Ann Gray, 43, of 2279 Somers Drive, Pittsburgh, Pa., was tried before Chief United
States District Judge Gary L. Lancaster.

        According to Assistant United States Attorney Leo M. Dillon who prosecuted the case, the
evidence presented at trial established that Gray stole more than $100,000 in government funds by
converting to her own use Social Security Administration payments designated for the benefit of two
of her minor children.

         Judge Lancaster scheduled sentencing for Feb. 8, 2013, at 9:30 a.m. The law provides for
a total sentence of 10 years in prison on the theft count, five years in prison on the Social Security
conversion count, a fine of $250,000 on each count, or both. Under the Federal Sentencing
Guidelines, the actual sentence imposed would be based upon the seriousness of the offenses and
the prior criminal history, if any, of the defendant.

       Pending sentencing, the court continued defendant on bond.

        The Social Security Administration, Office of Inspector General conducted the investigation
that led to the prosecution of Gray.

                                                ###
